           OFFICE OF
    THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION


    DISABLED INDIVIDUALS WITH
  MENTAL IMPAIRMENTS IN NEED OF
     A REPRESENTATIVE PAYEE


    September 2012   A-07-11-11110




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                SOCIAL SECURITY
MEMORANDUM

Date:      September 27, 2012                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Disabled Individuals with Mental Impairments in Need of a Representative Payee
           (A-07-11-11110)


           OBJECTIVE
           The objectives of our review were to identify potential vulnerabilities of direct payment to
           individuals receiving Disability Insurance (DI) or Supplemental Security Income (SSI)
           payments because of a mental impairment and determine whether additional
           safeguards were needed to ensure these individuals' funds were properly managed.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because of
           their youth or mental and/or physical impairments. For such individuals, Congress
           provided for payment through a representative payee who receives and manages the
           individual’s benefit payments. 1 A representative payee may be an individual or an
           organization. The Social Security Administration (SSA) selects representative payees
           for Old-Age, Survivors and Disability Insurance (OASDI)2 beneficiaries or SSI 3
           recipients when representative payment would serve the individual’s interests. 4

           According to SSA policy, all legally competent, adult beneficiaries are presumed
           capable of managing or directing the management of their benefits unless there are



           1
               Social Security Act §§ 205(j)(1) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1) and 1383(a)(2)(A)(ii).
           2
            The OASDI program provides benefits to qualified retirement eligible and disabled workers and their
           dependents as well as to survivors of insured workers. Social Security Act § 202 et seq., 42 U.S.C. § 402
           et seq.
           3
            The SSI program provides payments to individuals who have limited income and resources and who are
           age 65 or older, blind, or disabled. Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           4
               Social Security Act §§ 205(j)(1) and 1631(a)(2)(A)(ii)(I), 42 U.S.C. §§ 405(j)(1) and 1383(a)(2)(A)(ii)(I).
Page 2 - The Commissioner


indicators or evidence to the contrary. 5 If SSA obtains information that beneficiaries
may have a mental or physical impairment that prevents them from managing or
directing the management of their benefits, it must perform a capability determination to
evaluate their ability and, if necessary, assign a representative payee. 6 In addition, if a
beneficiary is already entitled to benefits on another account, unless there is new
evidence about the beneficiary’s capability/incapability, SSA’s policy directs to assume
the initial determination about the beneficiary’s capability/incapability remains in effect
for any other benefits to which the beneficiary becomes entitled. 7

A representative payee’s responsibilities include (1) using the benefits received for the
beneficiary’s needs and best interests; (2) notifying SSA of any event or change that will
affect the beneficiary’s eligibility or benefit amount; (3) submitting a written report to
SSA, upon request, that accounts for the benefits received; and (4) making all
supporting records available for review, if requested by SSA. 8

Attention to representative payee issues should not end if SSA determines no payee is
required or appoints a payee. 9 SSA employees should remain alert to indications that a
beneficiary needs a change in the manner of payment (whether direct or
representative). 10

If a beneficiary has a mental impairment, SSA policy requires development of capability
only if there is an indication the beneficiary may not be able to reason properly, is
disoriented, has seriously impaired judgment, or cannot communicate with others. 11
The evaluation of adult disability based on mental disorders requires documentation of a
medically determinable impairment(s), consideration of the degree of limitation such
impairment(s) may impose on the individual's ability to work, and consideration of
whether these limitations have lasted or are expected to last for a continuous period of
at least 12 months. 12 SSA considers four broad functional areas when deciding
whether a mental impairment is severe enough to prevent an individual from working:



5
  SSA, POMS, GN 00502.010 (February 25, 2003) and GN 00502.020 (December 4, 2007). We use the
term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI recipients.
6
    Id.
7
    SSA, POMS, GN 00502.060.B.5 (May 15, 2012).
8
    20 C.F.R. §§ 404.2035 and 416.635.
9
    SSA, POMS, GN 00502.001.B.5 (March 16, 2011).
10
     Id.
11
     SSA, POMS, GN 00502.020 A.2 (December 4, 2007).
12
  SSA, Disability Evaluation Under Social Security, Blue Book – September 2008, 12.00 Mental
Disorders – Adult, § 12.00 A.
Page 3 - The Commissioner


(1) activities of daily living; (2) social functioning; (3) concentration, persistence, or pace;
and (4) episodes of decompensation. 13,14

As of June 7, 2011, we had identified approximately 6.5 million beneficiaries who had a
mental impairment. Of these 6.5 million beneficiaries, approximately 3 million already
required a representative payee (see Table 1).

                    Table 1: Beneficiary Representative Payee Assignment
                                               Type of Benefits Received
   Payee        Title II Only                   Title XVI Only     Title II and XVI
 Assigned? Number         Percent             Number      Percent Number Percent                Total
    Yes       954,393       32               1,690,158      62    322,878        45           2,967,429
    No      2,060,476       68               1,032,586      38    397,793        55           3,490,855
      Total 3,014,869      100               2,722,744     100    720,671       100           6,458,284

Of the 3.5 million beneficiaries who did not have a representative payee, approximately
3 million were age 15 to 65. 15 For our review, we limited our population to the
895,151 beneficiaries who resided within 100 miles of an Office of Audit (OA) location. 16
From those beneficiaries, we selected a sample of 275 beneficiaries to interview to
obtain insight into their ability to manage or direct the management of their own funds.
During the interviews, we observed the beneficiaries’ ability to reason and communicate
with others by asking a standard set of questions (see Appendix D).

These 275 beneficiaries had a range of mental impairments, with the most common
being Affective Disorders, followed by Schizophrenic, Paranoid, and Other Psychotic
Disorders and Organic Mental Disorders (see Chart 1). 17

13
     SSA, Disability Evaluation Under Social Security, supra at § 12.00 C.
14
   Episodes of decompensation are exacerbations or temporary increases in symptoms or signs
accompanied by a loss of adaptive functioning. SSA, Disability Evaluation Under Social Security, supra
at § 12.00 C.4.
15
   Individuals under age 15 must receive benefits through a representative payee regardless of
circumstance unless they have been legally emancipated. SSA, POMS, GN 00502.010
(February 25, 2003). We did not focus on these individuals in our review. In addition, when an individual
receiving disability benefits reaches full retirement age (FRA), SSA converts the individual from disability
benefits to retirement benefits. SSA, POMS, GN 00204.001.B (November 16, 2009). FRA used to be
age 65 but now is some point after age 65, depending on the year of birth of the individual. SSA, POMS,
RS 00615.003 (May 21, 2004). To ensure we excluded all individuals receiving retirement benefits, we
excluded those age 65 or older from our review.
16
   We would expect that the characteristics of those beneficiaries residing within 100 miles of an OA
location would not differ from those who reside outside 100 miles of an OA location. OA maintains offices
in Baltimore, Maryland; Boston, Massachusetts; New York, New York; Philadelphia, Pennsylvania;
Atlanta, Georgia; Birmingham, Alabama; Chicago, Illinois; Falls Church, Virginia; Dallas, Texas; Kansas
City, Missouri; Denver, Colorado; and Richmond, California.
17
     See Appendix E for a description of mental impairments.
Page 4 - The Commissioner


                    Chart 1: Sampled Beneficiary Mental Impairments



                                                                         40 (14%)
                                    132, (48%)

                                                                                30 ( 11%)


                                                                             27 (10%)

                                                              27 (10%)


                                  2 (1%)
                                             2    6
                          2 (1%)
                                           (1%) (2%) 7 (2%)
            Affective Disorders                                Schizophrenic/Paranoid/Psychotic Disorders
            Organic Mental Disorders                           Mental Retardation
            Anxiety Related Disorders                          Borderline Intellectual Functioning
            Personality Disorders                              Learning Disorder
            Somatoform Disorders                               Autism/Other Pervasive Disorders


We were able to interview 203 (74 percent) of the 275 sampled beneficiaries. Of the
remaining 72 (26 percent) beneficiaries, 19 refused to participate in our review, and we
could not locate 53. See Appendices B and C for our scope and methodology as well
as sampling methodology and results, respectively.

RESULTS OF REVIEW
Our review of a sample of 275 beneficiaries identified 64 (23 percent) who may have
been incapable of managing or directing the management of their benefits. Based on
the sample results, we estimate that 208,326 of the 895,151 mentally impaired
beneficiaries in our population received over $200 million in monthly benefits, but may
have been incapable of managing or directing the management of those benefits. If
these beneficiaries are, in fact, in need of a representative payee, we further estimate
that benefits totaling over $2.4 billion will be at risk of inappropriate use during a 1-year
period (see Appendix C). We would expect that similar concerns exist for the
approximately 2.1 million mentally impaired beneficiaries without a representative payee
who were not included in our population.

Further, we were unable to interview 72 (26 percent) of the 275 sampled beneficiaries.
Therefore, we could not determine whether they were alive or if concerns existed with
their ability to manage or direct the management of their benefits. Accordingly, the
monthly benefits of these beneficiaries may be at risk of inappropriate use.
Page 5 - The Commissioner


In addition, we found over 6,000 beneficiaries were receiving benefits under both the DI
and SSI programs but only had a representative payee assigned for 1 of the programs.
Consequently, approximately $2 million in monthly benefits may be at risk for these
beneficiaries. If these beneficiaries are, in fact, in need of a representative payee, we
further estimate that benefits totaling approximately $24 million will be at risk of
inappropriate use during a 1-year period.

BENEFICIARIES POSSIBLY INCAPABLE OF MANAGING THEIR BENEFITS

Our review disclosed that 64 (23 percent) of the 275 beneficiaries in our sample,
receiving $61,547 in monthly benefits, may be incapable of managing or directing the
management of their benefits. These 64 beneficiaries had various mental impairments,
with the largest number receiving benefits for Affective Disorders (see Table 2).

                        Table 2: Number of Beneficiaries by Impairment
                                                Total               Total         Interviewed
                                               Sampled          Interviewed    Beneficiaries Who
             Mental Impairment 18            Beneficiaries     Beneficiaries   May be Incapable
     Affective Disorders                         132                 106               28
     Schizophrenic/Paranoid/Psychotic
                                                   40               28                9
     Disorders
     Organic Mental Disorders                      30               19                8
     Mental Retardation                            27               17                6
     Anxiety Related Disorders                     27               22                8
     Borderline Intellectual Functioning            7                5                2
     Personality Disorders                          6                3                2
     Learning Disorder                              2                1                0
     Somatoform Disorders                           2                1                0
     Autism/Other Pervasive Disorders               2                1                1
                                     Total        275              203                64

Projecting these results to our population of 895,151 mentally impaired beneficiaries, we
estimate 208,326 beneficiaries were paid approximately $200 million in monthly benefits
but may have been incapable of managing or directing the management of those benefits
(see Appendix C). If these beneficiaries are, in fact, in need of a representative payee, we
further estimate that benefits totaling over $2.4 billion will be at risk of inappropriate use
during a 1-year period.

For example, one beneficiary in our sample received almost $1,300 a month in benefits.
During the interview, the beneficiary stated that she frequently forgot to pay her bills,
which had resulted in services being cut off. The beneficiary also stated that she often
wrote checks and did not realize there was not money in the account to pay the bills,
which resulted in overdraft fees. In fact, the beneficiary stated that she had to pay
$300 in overdraft fees 1 month. Based on this information, we determined the

18
     See Appendix E for a description of mental impairments.
Page 6 - The Commissioner


beneficiary may have been incapable of managing or directing the management of her
benefits.

Another beneficiary we interviewed resided with his parents and received $472 in
monthly benefits. The beneficiary’s mother was present during the interview and
answered the majority of the questions. The beneficiary did not understand most of the
questions we asked and was not able to answer simple questions—such as name,
address, and household members—without prompting from his mother. Other times,
his responses were unrelated to the questions asked. During the interview, the
beneficiary’s mother admitted that the beneficiary was not capable of managing his daily
living needs and paying his own bills. She stated that she and the beneficiary’s father
managed his finances. Therefore, the parents were serving as de facto payees.

In fact, of the 64 beneficiaries we determined may have been incapable of managing or
directing the management of their own benefits, we found 37 (58 percent) had a de
facto representative payee managing their benefits without SSA’s knowledge and
approval (see Chart 2). SSA had not evaluated these de facto payees’ qualifications
and suitability to serve the beneficiaries’ best interests. 19



                                        Chart 2: De Facto Payees

                                      Spouse                   Parent
                                      16 (43%)                 8 (22%)

                                                                     Other
                                                                    Relative
                                                                    5 (13%)
                                            Child        Friend
                                           4 (11%)       4 (11%)




19
   Prospective representative payees are required to submit the proper representative payee
application—the SSA-11. Representative payee applications are processed through SSA’s
Representative Payee System (RPS) unless it is not possible. When an application cannot be processed
through RPS, the payee applicant must complete a paper version of the application, the SSA-11-BK.
SSA, POMS, GN 00502.107 A. (October 4, 2010). In selecting a representative payee, SSA evaluates an
applicant’s qualifications and suitability to serve the beneficiary’s interests. SSA generally requires face-
to-face interviews with applicants to evaluate their suitability and explain their duties and responsibilities
as representative payees. SSA, POMS, GN 00502.113 A. and B. (October 13, 2011). SSA also reviews
the applicant’s Social Security number; verifies identity and income; reviews criminal history; and
evaluates any relationship to the beneficiary, custody arrangements, and past performance if they
currently or previously served as a representative payee. SSA, POMS, GN 00502.117
(January 31, 2006), and GN 00502.132 (October 28, 2011).
Page 7 - The Commissioner


SSA policy requires capability determinations when information suggests that
beneficiaries may have a mental or physical impairment that prevents them from
managing or directing the management of their benefits. 20 Accordingly, SSA should
perform a capability determination for the 64 beneficiaries we identified as possibly
incapable of managing or directing the management of their benefits. We will provide
SSA with a list of the 64 beneficiaries for appropriate action.

In addition, SSA should consider options to make mentally impaired beneficiaries, their
family members, and the public aware that a representative payee may be needed if
situations change and an individual becomes incapable of managing or directing the
management of their benefits. Some options SSA could consider include the following.

•     Mailings – Send periodic mailings or an enclosure to the annual Cost-of-Living
      Adjustment notices to mentally impaired beneficiaries and their families to inform
      them of SSA’s Representative Payment Program.
•     Outreach – Conduct educational outreach activities for the mental health community
      (doctors, case managers, organizations, etc.) to inform them of SSA’s
      Representative Payment Program. During our interviews, we found that 63 percent
      of the beneficiaries we interviewed was not aware of the Representative Payment
      Program. 21
•     Mental Impairment Projects – Identify a cost-effective way of conducting projects
      in which SSA schedules annual face-to-face interviews with mentally impaired
      beneficiaries to determine whether they are capable of managing or directing the
      management of their own benefits.

BENEFICIARIES WHO DECLINED TO PARTICIPATE OR COULD NOT BE
LOCATED

We found that $68,521 in monthly benefits received by 72 (26 percent) of the
275 beneficiaries in our sample may have been at risk of inappropriate use.

•     When contacted, 19 beneficiaries declined to participate in our review.
•     Although we made several attempts, we were unable to contact 53 beneficiaries. 22




20
     SSA, POMS, GN 00502.020 A. (December 4, 2007).
21
  Eight beneficiaries did not answer the question about whether they were aware of the Representative
Payment Program. Therefore, the 63 percent is based on 195 instead of 203 interviews.
22
   We attempted to call beneficiaries with a valid telephone number at least three times to arrange for an
interview. See Appendix B for a detailed discussion of the scope and methodology.
Page 8 - The Commissioner


As such, we could not determine whether these 72 beneficiaries were still alive 23 or if
concerns existed with their ability to manage or direct the management of their own
benefits.

For the individuals we interviewed, we found 23 percent may have been incapable of
managing or directing the management of their benefits. Therefore, if 23 percent of
these 72 beneficiaries is also incapable of managing or directing the management of
their benefits, we estimate that an additional 53,904 of the 895,151 mentally impaired
beneficiaries in our population received approximately $51 million in monthly benefits
but may have been incapable of managing or directing the management of their benefits
(see Appendix C). If these beneficiaries do, in fact, need a representative payee, we
further estimate that approximately $616 million in benefits will be at risk of
inappropriate use during a 1-year period.

SSA should contact these 72 beneficiaries to verify their continued benefit eligibility and,
if eligible, determine whether they are capable of managing their benefits. We will
provide SSA with a list of the 72 beneficiaries for appropriate action.

BENEFICIARIES WHO HAVE A REPRESENTATIVE PAYEE FOR ONLY ONE TITLE

Of the 6.5 million beneficiaries we initially identified as having a mental impairment, we
found 6,076 received benefits under both the DI and SSI programs but only had a
representative payee assigned for 1 of the programs. SSA policy directs to assume the
initial determinations about a beneficiary's capability/incapability remains in effect for
any other benefits to which the beneficiary becomes entitled, unless there is new
evidence about the beneficiary’s capability/incapability. In addition, the policy also
directs that one representative payee be appointed for all benefits to which the
beneficiary is entitled. 24 Therefore, if these beneficiaries require a representative
payee for benefits under one program, they should have had a representative payee
assigned under the other program as well. Consequently, these beneficiaries have
approximately $2 million in monthly benefits that may be at risk. Specifically,

•     2,248 beneficiaries with only a representative payee for DI directly received
      $423,803 in monthly SSI payments; and
•     3,828 beneficiaries with only a representative payee for SSI directly received
      $1,552,663 in monthly DI benefits.

If these beneficiaries do, in fact, need a representative payee, we further estimate that
approximately $24 million in benefits will be at risk of inappropriate use during a 1-year
period. 25 Accordingly, SSA should determine whether the 6,076 concurrent

23
  Since we were unable to verify the identities of the beneficiaries who refused to participate, we cannot
be certain that we spoke with the actual beneficiary.
24
     SSA, POMS, GN 00502.060.B.5 (May 15, 2012).
25
     Annual benefits represent $1,976,466 in benefits that may be at risk multiplied by 12 months.
Page 9 - The Commissioner


beneficiaries should have their benefits paid directly or through a representative payee.
In addition, SSA should remind technicians to verify whether beneficiaries are
concurrently entitled when making representative payee determinations. 26 We will
provide SSA with a list of the 6,076 beneficiaries for appropriate action.

CONCLUSION AND RECOMMENDATIONS
Based on the results of our interviews, we estimate that over 208,000 of the
895,151 mentally impaired beneficiaries in our population received over $200 million
in monthly benefits and may have been incapable of managing or directing the
management of their benefits. If these beneficiaries do, in fact, need a representative
payee, we further estimate over $2.4 billion in benefits, annually, will be at risk of
inappropriate use.

SSA policy mandates that employees always be alert to changes in circumstances that
might indicate the need for a new capability determination. 27 However, over $2.4 billion
in benefits may be at risk of inappropriate use because SSA does not have a process to
identify mentally impaired beneficiaries who become incapable of managing or directing
the management of their benefits after their initial entitlement.

In addition, we estimate that approximately $2 million in monthly benefits are at risk
because 6,076 beneficiaries received benefits under both the DI and SSI programs, but
only have a representative payee assigned for 1 of the programs. If these beneficiaries
do, in fact, need a representative payee, we further estimate approximately $24 million
in benefits will be at risk of inappropriate use, annually.

We recommend SSA:

1. Perform a capability determination for the 64 beneficiaries we identified as possibly
   incapable of managing or directing the management of their benefits.
2. Consider options to make mentally impaired beneficiaries, their family members, and
   the public aware that a representative payee may be needed if situations change
   and an individual becomes incapable of managing or directing the management of
   their benefits.
3. Contact the 72 beneficiaries whom we could not locate or refused to participate in
   our review to verify their continued benefit eligibility and, if eligible, determine
   whether they are capable of managing their benefits.
4. Determine whether the 6,076 concurrent beneficiaries should have their benefits
   paid directly or through a representative payee.



26
  We made similar recommendations in a prior audit. SSA, OIG, Follow-up: Concurrent Title II and XVI
Beneficiaries Receiving Representative Payee and Direct Payments (A-09-09-19019), August 2009.
27
     SSA, POMS, GN 00502.020 A.6 (May 18, 2012).
Page 10 - The Commissioner


5. Remind SSA technicians to verify whether beneficiaries are concurrently entitled
   when making representative payee determinations.

AGENCY COMMENTS
SSA agreed with our recommendations. In a general comment, SSA noted that the
recommendations in the report seem to focus heavily on a small sample of individuals
rather than addressing the broader issue of whether we should amend our policies and
procedures to address capability in mental impairment determinations. Our review did
not focus on the agency’s policies and procedures for capability determinations.
However, we agree that the agency may want to evaluate whether changes are needed
in its policies and procedures used to address capability in mental impairment
determinations. See Appendix F for the full text of SSA’s comments.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Interview Guide

APPENDIX E – Description of Mental Impairments

APPENDIX F – Agency Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
DI       Disability Insurance
FY       Fiscal Year
FRA      Full Retirement Age
MBR      Master Beneficiary Record
OA       Office of Audit
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
RPS      Representative Payee System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                                     Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed applicable Federal laws and regulations, the Social Security
    Administration’s (SSA) Program Operations Manual System, and other policy
    memorandums.

•   Reviewed prior Office of the Inspector General reports.

•   Obtained data extracts from SSA’s Master Beneficiary (MBR) and Supplemental Security
    Records (SSR) of 6,458,284 beneficiaries in current pay with a mental impairment as of
    June 2011. From these files, we identified 2,968,294 beneficiaries who

     did not have a representative payee assigned and

     were age 15 to 65. 1

    For our review, we limited our population to 895,151 beneficiaries who resided within
    100 miles of an Office of Audit (OA) location. 2

•   Selected a random sample of 275 beneficiaries for review. For each sampled
    beneficiary, we

     obtained queries from SSA’s MBR and/or SSR;

     reviewed LexisNexis and public databases (such as www.zabasearch.com and
      www.whitepages.com) to obtain current address information for selected
      beneficiaries;

1
  Individuals under age 15 must receive benefits through a representative payee regardless of any
circumstances unless they have been legally emancipated. SSA, POMS, GN 00502.010
(February 25, 2003). We did not focus on these individuals in our review. In addition, when an individual
receiving disability benefits reaches full retirement age (FRA), SSA converts the individual from disability
benefits to retirement benefits. SSA, POMS, GN 00204.001.B (November 16, 2009). FRA used to be
age 65 but now is some point after age 65, depending on the year of birth of the individual. SSA, POMS,
RS 00615.003. (May 21, 2004). To ensure we excluded all individuals receiving retirement benefits, we
excluded those age 65 or older from our review.
2
 We expect that the characteristics of those beneficiaries residing within 100 miles of an OA location do
not differ from those who reside outside 100 miles of an OA location. OA maintains offices in Baltimore,
Maryland; Boston, Massachusetts; New York, New York; Philadelphia, Pennsylvania; Atlanta, Georgia;
Birmingham, Alabama; Chicago, Illinois; Falls Church, Virginia; Dallas, Texas; Kansas City, Missouri;
Denver, Colorado; and Richmond, California.


                                                   B-1
     mailed up to three letters regarding our review; and

     attempted to interview them to determine their ability to manage or direct the
      management of their benefits. 3

•   Projected the number of beneficiaries who may have been incapable of managing or
    directing the management of their benefits.

Between September 2011 and April 2012, we performed audit work within 100 miles of
Baltimore, Maryland; Boston, Massachusetts; New York, New York; Philadelphia,
Pennsylvania; Atlanta, Georgia; Birmingham, Alabama; Chicago, Illinois; Falls Church,
Virginia; Dallas, Texas; Denver, Colorado; Kansas City, Missouri; and Richmond,
California. The entities reviewed were SSA’s field offices under the Office of
Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We tested the data obtained for
our audit and determined them to be sufficiently reliable to meet our objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




3
  We attempted to call beneficiaries with a valid telephone number at least three times to arrange for an
interview. See Appendix D for the interview questions we asked beneficiaries.


                                                   B-2
                                                                                     Appendix C

Sampling Methodology and Results
Based on data extracts from the Social Security Administration’s (SSA) Master
Beneficiary (MBR) and Supplemental Security Records (SSR), we identified a
population of 2,968,294 beneficiaries who

•   were in current pay as of June 2011;

•   had a primary diagnosis that indicated they had a mental impairment;

•   were receiving Disability Insurance (DI) benefits, or Supplemental Security Income
    (SSI), or both DI and SSI;

•   did not have a representative payee assigned; and

•   were age 15 to 65. 1

Of the population of 2,968,294 beneficiaries, 895,151 resided within 100 miles of an
Office of Audit (OA) location. 2

We randomly selected 275 beneficiaries to identify potential vulnerabilities of direct
payment to beneficiaries with mental impairments and determine whether additional
safeguards were needed to ensure their funds are properly managed. Specifically, we
attempted to interview each beneficiary in our sample to identify concerns with their
ability to manage or direct the management of his/her benefits using a standard set of
questions (see Appendix D).




1
  Individuals under age 15 must receive benefits through a representative payee regardless of any
circumstances unless they have been legally emancipated. SSA, POMS, GN 00502.010
(February 25, 2003). We did not focus on these individuals in our review. In addition, when an individual
receiving disability benefits reaches full retirement age (FRA), SSA converts the individual from disability
benefits to retirement benefits. SSA, POMS, GN 00204.001.B (November 16, 2009). FRA used to be
age 65 but now is some point after age 65, depending on the year of birth of the individual. SSA, POMS,
RS 00615.003 (May 21, 2004). To ensure we excluded all individuals receiving retirement benefits, we
excluded those age 65 or older from our review.
2
  We would expect that the characteristics of those beneficiaries residing within 100 miles of an OA
location would not differ from those who reside outside 100 miles of an OA location. The OA maintains
offices in Baltimore, Maryland; Boston, Massachusetts; New York, New York; Philadelphia, Pennsylvania;
Atlanta, Georgia; Birmingham, Alabama; Chicago, Illinois; Falls Church, Virginia; Dallas, Texas; Kansas
City, Missouri; Denver, Colorado; and Richmond, California.



                                                    C-1
                              Table C-1: Population and Sample Size
                                Description          Number of Beneficiaries
                              Population Size                       895,151
                              Sample Size                               275

We determined that 64 beneficiaries, receiving $61,547 in monthly benefits, may have
been incapable of managing or directing the management of their benefits. As shown in
Table C-2, we estimate that 208,326 of the 895,151 mentally impaired beneficiaries in
our population received over $200 million in monthly benefits but may have been
incapable of managing or directing the management of their benefits. If these
beneficiaries do, in fact, need a representative payee, we further estimate that over
$2.4 billion in benefits will be at risk of inappropriate use during a 1-year period. 3

               Table C-2: Beneficiaries Incapable of Managing Their Benefits
                                                 Number of
                Description                                                     Monthly Benefits
                                                Beneficiaries
    Sample Results                                       64                                  $61,547
    Point Estimate                                  208,326                            $200,342,671
    Projection - Lower Limit                        171,247                            $159,208,576
    Projection - Upper Limit                        249,308                            $241,476,766
    Annual Estimate for Population                                                    $2,404,112,052
    Note: All statistical projections are at the 90-percent confidence level.

In addition, we found $68,521 in monthly benefits received by 72 beneficiaries may
have been at risk of inappropriate use because either we could not locate them (53
beneficiaries) or they refused to participate in our review (19 beneficiaries). As shown
in Table C-3, if 23 percent of these beneficiaries is also incapable of managing or
directing the management of their benefits, we estimate that an additional 53,904 of the
895,151 mentally impaired beneficiaries in our population received about $51 million in
monthly benefits but may have been incapable of managing or directing the
management of their benefits. 4 If these beneficiaries do, in fact, need a representative
payee, we further estimate that approximately $616 million in benefits will be at risk of
inappropriate use during a 1-year period (see Table C-3). 5




3
 Annual benefits represent the monthly benefits point estimate for the population multiplied by
12 months.
4
  Since it is uncertain whether all 72 beneficiaries may be incapable of managing their own benefits, we
took a conservative approach and used 23 percent. The 23 percent comes from our finding that
64 (23 percent) of the 275 sampled beneficiaries may have been incapable of managing or directing the
management of their benefits.
5
 Annual benefits represent 23 percent of the monthly benefits point estimate for the population multiplied
by 12 months.


                                                      C-2
                    Table C-3: Other At Risk Beneficiaries Who May be
                          Incapable of Managing Their Benefits
                                                                                       23 Percent of
                               Number of         23 Percent of              Monthly      Monthly
      Description
                              Beneficiaries      Beneficiaries              Benefits     Benefits
Sample Results                         72                                   $68,521
Point Estimate                    234,367              53,904          $223,041,878    $51,299,632
Projection - Lower Limit          195,570                              $180,373,769
Projection - Upper Limit          276,635                              $265,709,986
Annual Estimate for
                                                                     $2,676,502,536 $615,595,584
Population
Note: All statistical projections are at the 90-percent confidence level.




                                                    C-3
                                                                                Appendix D

Interview Guide
We interviewed 203 of the 275 sampled beneficiaries to obtain insight into their ability to
manage or direct the management of their own funds. During the interviews, we
observed the beneficiaries’ ability to reason and function with others by asking the
questions listed below. 1,2

We found that 64 (23 percent) of the 203 beneficiaries we interviewed may be incapable
of managing or directing the management of their benefits. Our conclusion that a
beneficiary may be incapable of managing or directing the management of their benefits
was based on various issues disclosed during the interview. Those issues included
interview responses that indicated the beneficiary (1) did not remember to pay bills, take
medications, or go to doctor appointments and (2) already had a de facto representative
payee managing his/her benefits without the Social Security Administration’s (SSA)
knowledge and approval.

Questions Asked During Beneficiary Interview
      1. Do you live alone? If no,
         a. Who lives with you?

      2. Have you ever lived with people who did not pay their share of the rent or other
         expenses?

      3. About how much in Social Security benefits do you receive each month?

      4. Do you receive your Social Security benefits by check or through direct deposit?

      5. What do you usually spend your money on each month?

      6. What are the most important things that you spend your money on?

      7. Do you pay for the things yourself or does someone else pay them for you?

      8. Have you ever forgotten to pay any of your bills? If yes,
         a. How often do you forget to pay your bills?
         b. How did you end up remembering to pay the bills?

      9. Do you have a savings account and/or checking account?

1
 The questions we asked beneficiaries are similar to the questions SSA asks when performing a
capability determination.
2
    SSA, POMS, GN 00502.050 (September 15, 2011).

                                                D-1
   a. Do you write your own checks or does someone else write the checks for
      you?
   b. Have you ever written a check when you have not had money in the bank? If
      yes,
        i. How many times has this happened?
       ii. Why do you think this happened?
      iii. What did you do about it when it happened?
   c. How often do you receive a statement from the bank?
   d. What do you do with the bank statement?

10. How many meals do you usually eat each day?

11. Do you go to the store to buy groceries?
    a. If yes, how do you get there?
    b. If no, does anyone else buy groceries for you? If yes,
         i. who buys them for you?

12. Do you decide what groceries you need to buy? If no,
    a. Who decides for you?

13. Have you ever run out of food or not been provided with enough food? If yes,
    a. Why did this happen?
    b. What did you do about it?

14. How is your overall health?

15. How often do you see a doctor?

16. How do you pay medical bills or purchase medicine?

17. Have you ever needed help remembering when to take your medication or how
    much medication to take?

18. Do you have friends or relatives nearby that help you out in any way?

19. Do you ask your friends or relatives for help when you need it?

20. Do friends or relatives help you figure out how to manage your money?

21. Do friends or family ever borrow money from you and not pay you back?

22. Do people ever borrow things you own and not give them back?

23. In the past year, how many times have you visited a Social Security field office?
    a. What were the reason(s) for the visit(s)?




                                       D-2
24. Are you aware that SSA has a Representative Payee Program that assists
    people who need help managing their benefits?
    a. Are you interested in receiving additional help with managing your benefits?
    b. Would you like more information about the Representative Payee Program?

25. Is there anything you would like to bring to the attention of Social Security?




                                        D-3
                                                                                    Appendix E

Description of Mental Impairments
The evaluation of disability on the basis of mental disorders requires documentation of a
medically determinable impairment(s), consideration of the degree of limitation such
impairment(s) may impose on the individual's ability to work, and consideration of
whether these limitations have lasted or are expected to last for a continuous period of at
least 12 months. SSA classifies mental disorders in the following diagnostic categories. 1

1. Organic mental disorders—symptoms may include, but are not limited to,
   disorientation of time and place, memory impairment, hallucinations or delusions,
   and loss of measured intellectual ability.

2. Schizophrenic, paranoid, and other psychotic disorders—characterized by the
   onset of psychotic features with deterioration from a previous level of functioning,
   which may include persistent delusions or hallucinations, catatonic or other grossly
   disorganized behavior, or incoherence.

3. Affective disorders—characterized by a disturbance of mood, accompanied by a
   full or partial manic or depressive syndrome.

4. Mental retardation—refers to significantly sub-average general intellectual
   functioning with deficits in adaptive functioning initially manifested during the
   developmental period (before age 22). Mental incapacity may be evidenced by
   dependence upon others for basic personal needs (for example, toileting, eating,
   dressing, or bathing) and inability to follow directions.

5. Anxiety-related disorders—anxiety is either the predominant disturbance or it is
   experienced if the individual attempts to master symptoms; for example, confronting
   the dreaded object or situation in a phobic disorder, or resisting the obsessions or
   compulsions in obsessive-compulsive disorders.

6. Somatoform disorders—characterized by physical symptoms for which there are
   no demonstrable organic findings or known physiological mechanisms.

7. Personality disorders—exists when personality traits are inflexible and
   maladaptive and cause either significant impairment in social or occupational
   functioning or subjective distress. Symptoms may include seclusion or autistic
   thinking, or oddities of thought, perception, speech or behavior.

8. Substance addiction disorders—characterized by behavioral or physical changes
   associated with the regular use of substances that affect the central nervous system.

1
    SSA, Disability Evaluation Under Social Security, supra at §§ 12.02 to 12.10.

                                                    E-1
9. Autistic disorder and other pervasive developmental disorders—characterized
   by qualitative deficits in the development of reciprocal social interaction, in the
   development of verbal and nonverbal communication skills, and in imaginative
   activity. Often, there is a markedly restricted repertoire of activities and interests,
   which frequently are stereotyped and repetitive.




                                           E-2
                  Appendix F

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 21, 2012                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Disabled Individuals with Mental Impairments in
           Need of a Representative Payee” (A-07-11-11110)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “DISABLED INDIVIDUALS WITH MENTAL IMPAIRMENTS IN NEED OF
A REPRESENTATIVE PAYEE” (A-07-11-11110)

General Comment

Based on the sample size and scope of the Office of the Inspector General’s (OIG) review, we
believe the results are not a reliable representation of mentally disabled beneficiaries nationwide.
OIG derived the sample from a group of 275 beneficiaries with a wide range of mental
impairments within specific geographical boundaries. Of the 275 beneficiaries sampled, 203
answered a small number of interview questions that were supposed to assist in assessing
capability. Although the report states that the questions are similar to those asked by our field
office staff, it neglects to mention the fact that we have a medical doctor perform a capability
assessment based on medical evidence, prior to the field office interview. Finally, we note that
the recommendations in the report seem to focus heavily on this small sample of individuals
rather than addressing the broader issue of whether we should amend our policies and procedures
to address capability in mental impairment determinations.

Recommendation 1

Perform a capability determination for the 64 beneficiaries we identified as possibly incapable of
managing or directing the management of their benefits.
Response

We agree.

Recommendation 2
Consider options to make mentally impaired beneficiaries, their family members, and the public
aware that a representative payee may be needed if situations change and an individual becomes
incapable of managing or directing the management of their benefits.
Response

We agree to the extent that any contact with family members or the public remain compliant with
the Privacy Act and our disclosure rules.

Recommendation 3
Contact the 72 beneficiaries whom we could not locate or refused to participate in our review to
verify their continued benefit eligibility and, if eligible, determine whether they are capable of
managing their benefits.
Response

We agree.




                                                F-2
Recommendation 4
Determine whether the 6,076 concurrent beneficiaries should have their benefits paid directly or
through a representative payee.
Response

We agree.

Recommendation 5

Remind SSA technicians to verify whether beneficiaries are concurrently entitled when making
representative payee determinations.
Response

We agree.




                                               F-3
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division

   Shannon Agee, Audit Manager, Kansas City Audit Division

Acknowledgments

In addition to those named above:

   Katherine Muller, Senior Auditor

   Kenneth Bennett, IT Specialist

   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965 4518. Refer to Common Identification Number
A-07-11-11110.
                                 DISTRIBUTION SCHEDULE

Commissioner of Social Security

Chairman and Ranking Member, Committee on Ways and Means

Chief of Staff, Committee on Ways and Means

Chairman and Ranking Minority Member, Subcommittee on Social Security

Majority and Minority Staff Director, Subcommittee on Social Security

Chairman and Ranking Minority Member, Committee on the Budget, House of
 Representatives

Chairman and Ranking Minority Member, Committee on Oversight and Government Reform

Chairman and Ranking Minority Member, Committee on Appropriations, House of
 Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations, House
 of Representatives

Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate

Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and Family
 Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
